November 20, 2009

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2009 Postal Service Financial Statements
         Audit – Eagan Information Technology and Accounting Service Center
         (Report Number FT-AR-10-004)

This report presents the results of our audit of selected financial activities and
accounting records at the U.S. Postal Service Eagan, MN, Information Technology and
Accounting Service Center (IT/ASC), for the fiscal year (FY) ended September 30, 2009
(Project Number 09BM006FT000). The Postal Reorganization Act of 1970, as
amended, requires annual audits of the Postal Service’s financial statements. We
conducted this audit in support of the independent public accounting firm’s overall audit
opinion on the Postal Service’s financial statements. This audit addressed financial risk.
See Appendix A for additional information about this audit.

Conclusion

During our audit of the Eagan IT/ASC, we noted:

      Financial accounting policies and procedures provided for an adequate internal
       control structure and complied with accounting principles generally accepted in
       the U.S.

      Accounting transactions at the Eagan IT/ASC impacting the general ledger
       account balances were stated in accordance with accounting principles generally
       accepted in the U.S.

      General ledger account balances conformed with the general classification of
       accounts on a basis consistent with that of the previous year.

      The Postal Service complied with laws and regulations that have a direct and
       material effect on the financial statements.

We did not propose any adjustments.
Fiscal Year 2009 Postal Service Financial Statements Audit –                                             FT-AR-10-004
 Eagan Information Technology and Accounting Service Center


Observation

The Eagan ASC has established procedures to evaluate payroll processing. However,
we did not find evidence to support required testing1 for:

        Payroll calculations for two of the four groups of rural employees during six pay
         periods from October 10, 2008, through January 2, 2009.2
        Contractual salary increases implemented by one Software Change Request for
         one Rate Schedule Code, effective November 22, 2008.3

The required procedures reduce the risk of material miscalculations, identify potential
errors timely, and provide overall assurance and reliability over payroll processing. We
performed this review quarterly, and procedures were adequately documented in
subsequent periods. In addition, we tested the accuracy of all Software Change
Requests relating to contractual salary increases implemented during the year. Officials
agreed with the discrepancies.

Progress on Prior Years’ Recommendations

In 2005, we reported4 that the Postal Service did not always follow Internal Revenue
Service (IRS) employment tax regulations for reporting salary overpayments. We
recommended that management revise policy to comply with IRS regulations, establish
accounts receivable for gross amounts due, and inform employees of tax implications.

Management has issued a Software Change Request to modify accounts receivable
processing as follows:

        For current year salary overpayments, management will generate an account
         receivable invoice for the net amount due. If the receivable is not repaid by
         December 31 of the current calendar year, management will consider the
         outstanding amount taxable income and will establish an additional receivable for
         the applicable taxes due.

        For prior year salary overpayments, management will generate an account
         receivable invoice for the gross amount due.

        Management will notify the employee disclosing the IRS tax regulations.


1
  Postal Service Pay Calc Desk Procedures (dated February 1, 2008, updated November 7, 2008) require verification
of the mechanical calculations for gross pay, deductions, and leave to validate the payroll processing. In addition,
they require similiar testing when a Software Change Request is implemented.
2
  Each payroll period, these groups represent an average of $66 million of the $1.5 billion total gross payroll expense.
3
  The test represents a compensating control to ensure the integrity of the payroll processing. The impact of this
Software Change Request was approximately $1.2 million for the payroll period.
4
  Reporting Salary Overpayments to the Internal Revenue Service (Report Number FT-MA-05-002, dated
September 28, 2005).




                                                           2
Fiscal Year 2009 Postal Service Financial Statements Audit –                   FT-AR-10-004
 Eagan Information Technology and Accounting Service Center


The Postal Service plans to implement these changes by January 1, 2010. If the
changes are processed as planned, it will satisfy our recommendations. We will
continue to monitor this area as part of our annual financial statement audit work.
We are not making any additional recommendations in this report. As a result,
management chose not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: Joseph Corbett
    Julie S. Moore
    Jo Ann E. Mitchell
    Stephen J. Nickerson
    Steven R. Phelps
    Bill Harris




                                                  3
Fiscal Year 2009 Postal Service Financial Statements Audit –                      FT-AR-10-004
 Eagan Information Technology and Accounting Service Center


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Eagan IT/ASC is one of three Postal Service-wide ASCs.5 It functions as a large,
centralized accounting and disbursement center, and its employees are responsible for
processing payroll, maintaining the general ledger, reconciling financial data, and
maintaining cash and receivable accounts.

We will issue separate financial statement audit reports for headquarters and the
St. Louis and San Mateo IT/ASCs. Further, in addition to the overall opinion on the
Postal Service’s financial statements, the Board of Governors independent public
accounting firm, contracted to express an opinion on the financial statements, will issue
separate reports on the Postal Service’s internal controls and compliance with laws and
regulations. The U.S. Postal Service Office of Inspector General (OIG) will also issue a
separate report for the audit of the FY 2009 information system controls at the Eagan,
MN; San Mateo, CA; and St. Louis, MO, IT/ASCs; and the Raleigh, NC, Information
Technology Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:

          Financial accounting policies and procedures provide for an adequate internal
           control structure and comply with accounting principles generally accepted in the
           U.S.

          Accounting transactions at the Eagan IT/ASC that impact the general ledger
           account balances for assets, liabilities, equity, income, and expenses of the
           Postal Service are fairly stated in accordance with accounting principles
           generally accepted in the U.S.

          General ledger account balances conform to the general classification of
           accounts of the Postal Service on a basis consistent with that of the previous
           year.

          The Postal Service complies with laws and regulations that have a material and
           direct effect on the financial statements as a whole.

To accomplish our objectives, we conducted fieldwork from November 2008 through
November 2009. As part of our audit, we assessed internal controls, tested
transactions, and verified account balances. We conducted this audit from November
2008 through November 2009 in accordance with the standards of the Public Company

5
    Other IT/ASCs are located in St. Louis, MO, and San Mateo, CA.




                                                          4
Fiscal Year 2009 Postal Service Financial Statements Audit –                            FT-AR-10-004
 Eagan Information Technology and Accounting Service Center


Accounting Oversight Board (United States) (PCAOB) and the standards applicable to
financial audits contained in Government Auditing Standards issued by the Comptroller
General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to limit audit risk to a low level that is, in
our professional judgment, appropriate for supporting the overall audit opinion on
financial statements. Those standards also require considering the results of previous
engagements and following up on known significant findings and recommendations that
directly relate to the objectives of the audit. An audit also includes obtaining a sufficient
understanding of internal controls to plan the audit and to determine the nature, timing,
and extent of audit procedures to be performed. We believe the evidence obtained
provides a reasonable basis for our conclusion and observation based on our audit
objective.

We supported the external auditors in obtaining reasonable assurance about whether
the financial statements were free of material misstatement (whether caused by error or
fraud). Absolute assurance is not attainable because of the nature of audit evidence
and the characteristics of fraud. Therefore, an audit conducted in accordance with
PCAOB and Government Auditing Standards may not detect a material misstatement.
However, external auditors and the OIG are responsible for ensuring that appropriate
Postal Service officials are aware of any significant deficiencies that come to our
attention. We discussed our observations and conclusions with management officials
on October 30, 2009, and included their comments where appropriate.

We relied on computer-generated data from a number of Postal Service financial
systems, including the following.

      Accounting Data Mart                                   Rural Adjustment Processing
      General Ledger                                          System
      Time and Attendance Collection                         National Accounting Oracle
       System                                                  Financials Application - Accounts
      Pay Calc and Adjustment                                 Payable Excellence
       Processing System                                      Payroll File Maintenance
      Complement Management and                              Human Capital Enterprise
       Selection System                                        System
      Accounts Receivable System                             Employee Personnel Action
      Chesapeake Reconciliation                               History
      Returned and Check Management                          Retirement and Insurance
       System                                                  Transfer System
      Commercial Check Tracking                              PostalEASE
       System                                                 Eagan Accounts Payable System
                                                              Employee Master File




                                                  5
Fiscal Year 2009 Postal Service Financial Statements Audit –                            FT-AR-10-004
 Eagan Information Technology and Accounting Service Center


We performed specific internal control and transaction tests to validate these systems’
data, to include tracing selected financial information to supporting source records. For
example, we traced payroll system reports to original journal voucher transactions.

PRIOR AUDIT COVERAGE

                                           Final
                       Report             Report         Monetary
 Report Title          Number              Date           Impact           Report Results
Fiscal Year 2008     FT-AR-09-002      November 20,              $0    No significant issues
Postal Service                            2008                         reported. Management
Financial                                                              took corrective action on
Statements Audit                                                       the interim issue regarding
– Eagan                                                                Federal Employees’
Information                                                            Retirement System
Technology and                                                         Contribution Rates during
Accounting                                                             our audit.
Service Center
Fiscal Year 2007     FT-AR-08-007       February 8,       $2.706,979   We identified an internal
Postal Service                             2008                        control deficiency
Financial                                                              regarding account
Statements Audit                                                       reconciliations. We made
– Eagan                                                                three recommendations
Information                                                            and management took
Technology and                                                         correction action. The
Accounting                                                             recommendations are
Service Center                                                         closed.
Management           FT-MA-05-002      September 28,             $0     See the “Progress on Prior
Advisory –                                 2005                         Years’ Recommendations”
Reporting Salary                                                        section of this report.
Overpayments to
the Internal
Revenue Service




                                                   6
